No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES CITIZENSHIP AND IMMIGRATION
SERVICES ET AL., PETITIONERS
v.
CITY AND COUNTY OF SAN FRANCISCO, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage prepaid, this
19th day of January, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3043
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
January 19, 2021.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
January 19, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of your
brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case
Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218. Thank
you for your consideration of this request.

UNITED STATES CITIZENSHIP AND IMMIGRATION
SERVICES ET AL.
CITY AND COUNTY OF SAN FRANCISCO, ET AL.

SARA J. EISENBERG
SAN FRANCISCO CITY ATTORNEY’S OFFICE
FOX PLAZA
7TH FLOOR
1390 MARKET STREET
SAN FRANCISCO, CA 94102
415-554-3857
SARA.EISENBERG@SFCITYATTY.ORG
HANNAH LUKE EDWARDS
COUNTY OF SANTA CLARA
OFFICE OF THE COUNTY COUNSEL
70 WEST HEDDING STREET
EAST WING
9TH FLOOR
SAN JOSE, CA 95110
408-229-6936
LUKE.EDWARDS@CCO.SCCGOV.ORG
ANNA RICH
AGCA - OFFICE OF THE ATTORNEY GENERAL
1515 CLAY STREET
OAKLAND, CA 94612
510-879-0296
ANNA.RICH@DOJ.CA.GOV
LOREN L. ALIKHAN
OFFICE OF THE ATTORNEY GENERAL
OFFICE OF THE SOLICITOR GENERAL
400 6TH STREET, NW
SUITE 8100
WASHINGTON, DC 20001
LOREN.ALIKHAN@DC.GOV
JILL O’BRIEN
OFFICE OF THE ATTORNEY GENERAL
6 STATE HOUSE STATION
AUGUSTA, ME 04333
JILL.OBRIEN@MAINE.GOV

AIMEE D. THOMSON
PENNNSYLVANIA OFFICE OF THE ATTORNEY GENERAL
IMPACT IMMIGRATION SECTION
1600 ARCH STREET
SUITE 300
PHILADELPHIA, PA 19103
267-940-6696
ATHOMSON@ATTORNEYGENERAL.GOV
NICOLE DEFEVER
OREGON DEPARTMENT OF JUSTICE
1162 COURT STREET, NW
SALEM, OR 97301
APPELLATESERVICE@DOJ.STATE.OR.US
JEFFREY T. SPRUNG
AGWA – OFFICE OF THE WASHINGTON ATTORNEY GENERAL (SEATTLE)
800 FIFTH AVENUE
SUITE 2000
SEATTLE, WA 98104-3188
206-326-5492
JEFF.SPRUNG@ATG.WA.GOV
MICHELLE SHANE KALLEN
OFFICE OF THE ATTORNEY GENERAL
202 NORTH NINTH STREET
RICHMOND, VA 23219
804-786-7704
MKALLEN@OAG.STATE.VA.US
SARAH A. HUNGER
OFFICE OF THE ATTORNEY GENERAL
100 WEST RANDOLPH STREET
12TH FLOOR
CHICAGO, IL 60601
312-814-5202
SHUNGER@ATG.STATE.IL.US
JEFFREY PAUL DUNLAP
OFFICE OF THE ATTORNEY GENERAL
200 ST. PAUL PLACE
FLOOR 20
BALTIMORE, MD 21202
913-449-5049
JDUNLAP@OAF.STATE.MD.US

HEIDI PARRY STERN
AGNV – OFFICE OF THE NEVADA DISTRICT ATTORNEY GENERAL
(LAS VEGAS)
555 EAST WASHINGTON AVENUE
LAS VEGAS, NV 89101
HSTERN@AG.NV.GOV
MELISSA MEDOWAY
OFFICE OF THE NEW ATTORNEY GENERAL – DIVISION OF LAW
DEPUTY ATTORNEY GENERAL
SECTION CHIEF – SPECIAL LITIGATION
HUGHES JUSTICE COMPLEX
25 MARKET STREET
FIRST FLOOR
TRENTON, NJ 08625
609-376-3235
MELISSA.MEDOWAY@LAW.NJOAG.GOV
TANIA MAESTAS
OFFICE OF THE ATTORNEY GENERAL
PO DRAWER 1508
SANTA FE, NM 87504-1508
TMAESTAS@NMAG.GOV

